No. 19-423

 

 

In the
Supreme Court of the United States

BRIAN KIRK MALPASSO AND MARYLAND STATE RIFLE AND PISTOL
ASSOCIATION, INC.,

Petitioners,
v.
WILLIAM M. PALLOZZI, in his official capacity as Maryland Secretary of State Police,
Respondent.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1(h)

I, John Parker Sweeney, member of the Supreme Court Bar, counsel for Amicus National
Rifle Association of America, Inc., hereby certify that, according to the word-count tool in
Microsoft Word, the Brief of Amicus Curiae National Rifle Association, Inc. in Support of
Petitioners consists of 2,818 words, including footnotes and excluding the sections enumerated by
Rule 33.1(d). The Brief therefore complies with Rule 33.1(h).

    

oy Parker Sweeney

‘ounsel of Record

James Wallace Porter, IIT

Marc A. Nardone

Bradley Arant Boult Cummings LLP
1615 L Street NW, Suite 1350
Washington DC 20001
jsweeney@bradley.com

Counsel for Amicus Curiae
